FDIC Office of Inspector General Press Release: Stars of âReal housewives of new jerseyâ television series indicted on additional fraud charges
News Release
United States Department of Justice
United States Attorney's Office
District of New Jersey
FOR IMMEDIATE RELEASE
November 18, 2013
Stars of âReal housewives of new jerseyâ television series indicted on additional fraud charges
NEWARK, N.J. â Two of the stars of the Bravo television show âThe Real Housewives of New Jerseyâ were indicted today on additional charges of bank fraud and loan application fraud, U.S. Attorney Paul J. Fishman announced.
The 41-count superseding indictment returned by a federal grand jury against Teresa Giudice, 41, and her husband, Giuseppe âJoeâ Giudice, 43, both of Towaco, N.J., adds two new counts charging both defendants: one count of bank fraud and one count of loan application fraud. The original 39 counts on which they were indicted on July 29, 2013, which include conspiracy to commit mail and wire fraud, bank fraud, making false statements on loan applications and bankruptcy fraud, as well as charges against Giuseppe Giudice for failure to file tax returns from 2004 through 2008, remain in place.
An arraignment on the new charges has been scheduled for 10:30 a.m., Nov. 20, 2013, before U.S. District Judge Esther Salas in Newark federal court.
According to the superseding indictment:
The two additional counts stem from a $361,250 mortgage loan that Teresa Giudice obtained in July 2005. In the course of obtaining the loan, she and Giuseppe Giudice prepared a loan application which falsely stated that Teresa Giudice was employed as a realtor and that she had a monthly salary of $15,000. Teresa Giudice was not employed outside the home at the time.
The bank fraud and loan application fraud counts each carry a maximum potential penalty of 30 years in prison and a $1 million fine.
U.S. Attorney Fishman credited special agents of the Federal Deposit Insurance Corporation, Office of Inspector General, New York Region, under the direction of Special Agent in Charge A. Derek Evans; special agents of IRS-Criminal Investigation, under the direction of Special Agent in Charge Shantelle P. Kitchen; and Region 3 U.S. Trustee Roberta DeAngelis and the Newark office of the U.S. Trustee, with the investigation which led to todayâs indictment.
The government is represented by Assistant U.S. Attorneys Jonathan W. Romankow and Rachael Honig of the U.S. Attorneyâs Office, Criminal Division in Newark.
The charges and allegations contained in the indictment are merely accusations, and the defendants are considered innocent unless and until proven guilty.
13-440
Defense counsel:
Giuseppe Giudice: Miles Feinstein Esq., Paterson
Teresa Giudice: Henry E. Klingeman Esq., Newark
# # #